C@OCKLE

2311 Douglas Street L Brief E-Mail Address:
Omaha, Nebraska 68102-1214 ega ! Est. 2 ba contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 NO. 19-1184

NIKKI BRUNI, JULIE COSENTINO, CYNTHIA RINALDI,
KATHLEEN LASLOW, AND PATRICK MALLEY,
Petitioners,

v.
CITY OF PITTSBURGH, PITTSBURGH CITY COUNCIL,
AND MAYOR OF PITTSBURGH,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE FORTY DAYS FOR LIFE, PROLIFE
ACTION LEAGUE, SIDEWALK ADVOCATES FOR LIFE, PRO-LIFE ACTION MINISTRIES, and PRO-LIFE
WISCONSIN IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served
by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Thomas L. Brejcha Andrew M. Bath
Thomas Olp Stephen M. Crampton*
Thomas More Society
309 W. Washington St. Ste. 1250
Chicago, IL 60606
ph: 312-782-1680
email: scrampton@thomasmoresociety.org
Counsel of Record

Counsel for Amici Curiae

Subscribed and sworn to before me this 29th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

fete | Kens. 0. Lowa Ondeawhl, hl

Notary Public / Affiant

My Comm. Exp. September 8, 2023

 

 
 

 

Attorneys for Petitioners _

John J. Bursch
Counsel of Record

Party name: Nikki Bruni, et al

Alliance Defending Freedom (616) 450-4235
440 First Street NW

Suite 600

Washington, DC 20001

jbursch@adflegal.org

 

Attorneys for Respondents

Michael Edwin Kennedy
Counsel of Record

City of Pittsburgh Law Department (412) 255-2025
Associate City Solicitor

414 Grant Street

Third Floor, City County Building

Pittsburgh, PA 15219

michael.kennedy@pittsburghpa.gov

Party name: City of Pittsburgh, et al.

 

 
